   October 16, 2003




Acquisition

Sole-Source Spare Parts Procured
From an Exclusive Distributor
(D-2004-012)




          This special version of the report has been
          revised to omit contractor proprietary data.




                  Department of Defense
              Office of the Inspector General
Quality                     Integrity            Accountability
  Additional Copies

  To request additional copies of this report, contact Henry F. Kleinknecht at (703)
  604-9324 (DSN 664-9324) or Ronald W. Hodges at (703) 604-9592 (DSN
  664-9592).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AMCOM                 Army Aviation and Missile Command
DCAA                  Defense Contract Audit Agency
DCMO                  Defense Contract Management Office
DLA                   Defense Logistics Agency
DSCC                  Defense Supply Center Columbus
DSCP                  Defense Supply Center Philadelphia
DSCR                  Defense Supply Center Richmond
FAR                   Federal Acquisition Regulation
GAO                   General Accounting Office
NSN                   National Stock Number
OEM                   Original Equipment Manufacturer
SSA                   Strategic Supplier Alliance
           Office of the Inspector General of the Department of Defense
Report No. D-2004-012                                                               October 16, 2003
   Project No.(D2002CH-0029.000)

                          Sole-Source Spare Parts Procured
                           From an Exclusive Distributor

                                     Executive Summary

Who Should Read This Report and Why? This report should be of particular interest
to DoD acquisition, logistics, and contracting officials because it concerns procuring and
supplying sole-source spare parts at fair and reasonable prices.

Background. This report is one in a series of reports issued during the last 6 years that
involve commercial and noncommercial pricing of spare parts and other logistics support
initiatives. This report discusses the reasonableness of prices paid for spare parts from
AAR Defense Systems, an exclusive distributor for Hamilton Sundstrand, which is a
subsidiary of United Technologies Corporation. In FY 2001, United Technologies
Corporation was the sixth largest contractor for DoD with about $3.7 billion in contract
awards.

Starting in 1996, Hamilton Sundstrand entered into multiple agreements with AAR
Defense Systems as the exclusive distributor of designated spare parts. Under the
agreement, contracting officers for the Army Aviation and Missile Command and the
Defense Logistics Agency procure sole-source Hamilton Sundstrand parts directly from
AAR Defense Systems. Our review focused on 35 orders (29 contracts) for 11 sole-
source Hamilton Sundstrand spare parts (National Stock Numbers) procured from AAR
Defense Systems during March 1999 through August 2002 with a total value of
$16.8 million. In that same period, DoD awarded 311 orders for 89 sole-source Hamilton
Sundstrand spare parts to AAR Defense Systems with a total value of $57.6 million.

Results. Contracting officers for the Army Aviation and Missile Command and the
Defense Supply Centers followed established procedures and with available information
generally determined prices fair and reasonable for sole-source spare parts procured from
AAR Defense Systems. However, based on information we obtained not available to
contracting officers for the Army Aviation and Missile Command and the Defense
Supply Centers, the prices were too high. As a result, DoD paid $16.8 million instead of
$ 1 million, or 1 percent ($ 1 million), more than fair and reasonable prices. Based on
annual demand and the most recent prices paid, we calculate that DoD will pay about
$22.2 million, or 1 percent, more than fair and reasonable prices for the same items in
FY 2004 through FY 2009, if the problems are not corrected. The AAR Defense Systems
average pass-through costs of 1 percent represent $ 1 million of the $22.2 million. The
Commander, Army Aviation and Missile Command and the Director, Defense Logistics
Agency should emphasize with their contracting officers the need to revisit procuring
sole-source Hamilton Sundstrand spare parts from a distributor versus directly from the
original equipment manufacturer unless the distributor can provide sufficient value to
DoD in line with the additional pass-through costs. Contracting officers should also

       1
        This figure was calculated using contractor proprietary data and has been deleted.
obtain information that is adequate to evaluate reasonableness of price in accordance with
Federal Acquisition Regulation requirements. The information--information other than
cost or pricing data--includes uncertified cost or pricing data that can be used to perform
cost analysis. The Army and the Defense Logistics Agency should also emphasize with
their contracting officers the need to document and escalate negotiations in instances
where the original equipment manufacturer is either unreasonable or uncooperative and
refuses to quote an item or refuses to supply information other than cost or pricing data,
as required. The Army and the Defense Logistics Agency, in conjunction with the
Air Force, should consider initiating action that implements a new Strategic Supplier
Alliance with either AAR Defense Systems or Hamilton Sundstrand. (See the Finding
section of the report for the detailed recommendations.)

Management Comments and Audit Response. The Defense Logistics Agency
concurred with the audit finding and intent of the recommendations. Specifically, the
Director of Logistics Operations agreed that based on the Hamilton Sundstrand cost data
supplied to the Office of the Inspector General of the Department of Defense, prices paid
were more than what could be considered fair and reasonable. However, the Director of
Logistics Operations emphasized that the data were not available to the contracting
officers. We agreed and revised the finding to reflect that the information was not made
available to contracting officers. The Defense Logistics Agency is implementing a
Strategic Supplier Alliance with Hamilton Sundstrand and believes the success of the
alliance will satisfy the intent of our recommendations. We agree and consider the
Defense Logistics Agency comments responsive. The Army did not agree with either the
finding or the recommendations and the comments were generally not responsive.
Specifically, the Deputy Assistant Secretary of the Army (Policy and Procurement) did
not agree that fair and reasonable prices were not obtained for the four Army National
Stock Numbers referenced in the report. The Army asserted that the Army Aviation and
Missile Command complied with all the regulatory and statutory requirements in
negotiating fair and reasonable prices. In addition, Army contracting officers requested,
received, and used “information other than cost and pricing data” in support of
determining price reasonableness. We agreed that Army Aviation and Missile Command
contracting officers followed established procedures for determining prices fair and
reasonable and revised the finding to reflect this. However, as discussed in the report, the
information other than cost or pricing data requested, received, and upon which the Army
relied were inaccurate and misleading. Consequently, based on the data we obtained
from the original equipment manufacturer, we calculated that the Army should have paid
$ 2 million versus $3.8 million, a difference of $ 2 million or 2 percent more than fair
and reasonable prices. Accordingly, we request that the Army provide additional
comments on the final report by December 15, 2003. See the Finding section of the
report for a discussion of the management comments on the recommendations, Appendix
D for management comments on the finding and our audit response, and the Management
Comments section of the report for the complete text of the comments.




       2
           This figure was calculated using contractor proprietary data and has been deleted.




                                                      ii
Table of Contents

Executive Summary                                                   i

Background                                                         1

Objectives                                                         2

Finding
     Spare Parts Prices                                            3

Appendixes
     A. Scope and Methodology                                      21
          Management Control Program Review                        22
     B. Prior Coverage                                             23
     C. Comparison of DoD Prices with Fair and Reasonable Prices   25
     D. Management Comments on the Finding and Audit Response      28
     E. Report Distribution                                        31

Management Comments
     Defense Logistics Agency                                      33
     Department of the Army                                        40
Background
    During the last 6 years, the Office of the Inspector General of the Department of
    Defense (IG DoD) has worked closely with the Defense Logistics Agency (DLA)
    and other DoD Components to achieve fair and reasonable pricing for sole-source
    commercial and noncommercial spare parts. This report discusses the
    reasonableness of prices paid for spare parts procured from AAR Defense
    Systems, an exclusive distributor for Hamilton Sundstrand, which is a subsidiary
    of United Technologies Corporation. United Technologies was the sixth largest
    DoD contractor with $3.7 billion in DoD contracts in FY 2001.

    Hamilton Sundstrand. Hamilton Sundstrand designs, manufactures, and
    supports aerospace and industrial products to include spare parts, overhaul and
    repair, and engineering and technical support. Hamilton Sundstrand is an original
    equipment manufacturer (OEM) of sole-source spare parts the Army Aviation and
    Missile Command (AMCOM), DLA, and other DoD Components procured.
    Starting in 1996, Hamilton Sundstrand entered into multiple agreements with
    AAR Defense Systems as the exclusive distributor of designated sole-source
    spare parts, where DoD would procure the parts directly from AAR Defense
    Systems.

    AAR Defense Systems. AAR Defense Systems, a military supplier, dealer,
    distributor, and maintenance program manager for aircraft and engine parts and
    components, is the exclusive distributor of designated spare parts for Hamilton
    Sundstrand. The distributor agreement applies to sales only for U.S. Government
    requirements. As a result, both AMCOM and the DLA Defense Supply Centers
    procured spare parts from AAR Defense Systems, which was acting as a
    distributor for Hamilton Sundstrand. AAR Defense Systems representatives
    stated they have various agreements with Hamilton Sundstrand as an exclusive
    distributor of sole-source spare parts for users other than DoD.

    Army Aviation and Missile Command. AMCOM is a major subordinate
    command of the Army Materiel Command. AMCOM is headquartered at
    Redstone Arsenal in Huntsville, Alabama. In partnership with Program Executive
    Offices and Program Managers, AMCOM ensures the Army’s readiness by
    developing, acquiring, and fielding Army aviation and missile systems. AMCOM
    provides engineering, logistics, and acquisition services to accomplish those
    tasks. AMCOM services cover more than 90 major systems, about half of the
    systems in the Army today, which includes critical Army aviation spare parts.
    For FY 2001, the AMCOM budget at Redstone Arsenal exceeded $7.1 billion.
    AMCOM is the leader in the Army’s foreign military sales and accounts for more
    than 50 percent of total Army sales to allied forces and to friendly foreign nations.

    Defense Logistics Agency. DLA provides worldwide logistics support for the
    Military Departments and the unified combatant commands in peace and war.
    DLA has 11 field offices, 3 of which are involved in the procurement of spare
    parts. The three field offices are the Defense Supply Center Columbus (DSCC),
    the Defense Supply Center Philadelphia (DSCP), and the Defense Supply Center
    Richmond (DSCR). DSCC supplies weapon systems spare parts and end items
    and manages almost 1.8 million different construction and electronic spare parts.

                                          1
DSCP provides U.S. Service members with food, clothing, textiles, medicines,
medical equipment, and general and industrial supplies, and supports U.S.
humanitarian and disaster relief efforts. DSCR is the lead center for aviation
weapon systems and environmental logistics support and is the primary supply
source for nearly 930,000 repair parts and operating items. DSCC, DSCP, and
DSCR have each contracted for spare parts Hamilton Sundstrand manufactured.

Spare Parts Reviewed. We reviewed 35 orders (29 contracts) for 11 sole-source
Hamilton Sundstrand spare parts (National Stock Numbers [NSNs]) procured
from AAR Defense Systems from March 1999 through August 2002 with a total
value of $16.8 million. Table 1 shows the buying activity and spare parts
reviewed.

                   Table 1. Buying Activity and NSNs Reviewed

Item   Buying                                  Item
 No.   Activity         NSN                  Description                 Weapon System

 1     AMCOM      2835-01-106-9153   Shaft Assembly                UH-60 Helicopter
 2     AMCOM      2835-01-106-9156   Turbine Nozzle Assembly       UH-60 Helicopter
 3     AMCOM      2835-01-419-2118   Housing Reduction             UH-60 Helicopter
 4     AMCOM      2835-00-176-8867   Air Inlet and Sleeve          CH-47 Helicopter
 5      DSCC      2520-00-153-2652   Cylinder Block Assembly       Amphibious Assault Vehicle
 6      DSCP      3595-01-446-8522   Jet Fuel Starter Repair Kit   F-16 Fighter Aircraft
 7      DSCR      2835-00-015-8599   Combustion Chamber Case       CH-46, CH-47, and H-3
                                                                   Helicopters
 8     DSCR       2835-01-462-3375   Compressor Wheel              CH-47 Helicopter
 9     DSCR       2835-00-104-7376   Turbine Nozzle                CH-53 Helicopter
10     DSCR       2835-00-962-5838   Turbine Nozzle                CH-46 Helicopter
11     DSCR       2835-00-963-1393   Pinion Accessory Drive        CH-46 and CH-53
                                                                   Helicopters




Objectives
The overall objective was to determine whether DoD is paying fair and
reasonable prices for sole-source commercial and noncommercial spare parts
procured from AAR Defense Systems. We also reviewed the management
control program as it related to our overall objective. See Appendix A for a
discussion of the audit scope and methodology and management controls. See
Appendix B for prior coverage related to the objectives.




                                       2
             Spare Parts Prices
             Contracting officers for AMCOM and DLA followed established
             procedures and with available information generally determined prices fair
             and reasonable for sole-source spare parts procured from AAR Defense
             Systems--an exclusive distributor for Hamilton Sundstrand. However,
             based on information we obtained that was not available to the contracting
             officers for AMCOM and DLA, the prices were too high. The prices for
             commercial or noncommercial spare parts were too high because
             contracting officers:

                      •   were directed by the OEM, Hamilton Sundstrand (which
                          declined to give a quote) to procure spare parts through its
                          exclusive distributor, AAR Defense Systems, even though the
                          distributor provided limited value to DoD;

                      •   relied on inaccurate and misleading information other than cost
                          or pricing data AAR Defense Systems provided that originated
                          from Hamilton Sundstrand and failed to perform cost analysis
                          of OEM prices to determine price reasonableness; and

                      •   failed to sufficiently document and escalate negotiations in
                          cases where the behavior of the OEM was either unreasonable
                          or uncooperative.

             AMCOM and DLA also did not establish a Strategic Supplier Alliance
             (SSA) with either AAR Defense Systems or Hamilton Sundstrand. As a
             result, AMCOM and DLA paid $16.8 million instead of $ 3 million,
             or 3 percent ($ 3 million), more than fair and reasonable prices on
             35 orders (29 contracts) for 11 sole-source Hamilton Sundstrand spare
             parts procured from AAR Defense Systems from March 1999 through
             August 2002. Based on annual demand and the most recent prices paid,
             we calculate that DoD will pay about $22.2 million, or 3 percent more
             than fair and reasonable prices for the same items in FY 2004 through
             FY 2009, if the problems are not corrected. The AAR Defense Systems
             average pass-through costs ( 3 percent) represent $ 3 million of the
             $22.2 million.


Guidance on Commercial Items
    Commercial Item Definition. The Federal Acquisition Regulation (FAR)
    Subpart 2.1, “Definitions,” defines commercial items.

                 “Commercial item” means




    3
     This figure was calculated using contractor proprietary data and has been deleted.

                                                3
                (1) Any item, other than real property, that is of a type
           customarily used by the general public or by non-governmental
           entities for purposes other than governmental purposes, and
           [Emphasis added.]

                        (i) Has been sold, leased, or licensed to the general
           public;                                                            or
                        (ii) Has been offered for sale, lease, or license to the
           general public;

                (2) Any item that evolved from an item described in paragraph (1)
           of this definition through advances in technology or performance and
           that is not yet available in the commercial marketplace, but will be
           available in the commercial marketplace in time to satisfy the delivery
           requirements under a Government solicitation;

                (3) Any item that would satisfy a criterion expressed in paragraphs
           (1) or (2) of this definition, but for

                       (i) Modifications of a type customarily available in the
           commercial marketplace; or

                         (ii) Minor modifications of a type not customarily
           available in the commercial marketplace made to meet Federal
           Government requirements. Minor modifications means modifications
           that do not significantly alter the nongovernmental function or essential
           physical characteristics of an item or component, or change the purpose
           of a process. Factors to be considered in determining whether a
           modification is minor include the value and size of the modification
           and the comparative value and size of the final product. Dollar values
           and percentages may be used as guideposts, but are not conclusive
           evidence that a modification is minor;

“Information Other Than Cost or Pricing Data.” FAR Subpart 2.1,
“Definitions,” also defines “information other than cost or pricing data.”
           “Information other than cost or pricing data” means any type of
           information that is not required to be certified in accordance with
           15.406-2 and is necessary to determine price reasonableness or cost
           realism. For example, such information may include pricing, sales, or
           cost information, and includes cost or pricing data for which
           certification is determined inapplicable after submission.
           [Emphasis added.]

FAR 15.403-3, “Requiring Information Other Than Cost or Pricing Data,”
provides additional guidance on information necessary for evaluating the
reasonableness of prices.
           (a) General. (1) The contracting officer is responsible for obtaining
           information that is adequate for evaluating the reasonableness of the
           price or determining cost realism, but the contracting officer should not
           obtain more information than is necessary (see 15.402(a)). If the

                                          4
           contracting officer cannot obtain adequate information from sources
           other than the offeror, the contracting officer must require submission
           of information other than cost or pricing data from the offeror that is
           adequate to determine a fair and reasonable price (10 U.S.C.
           2306a(d)(1) and 41 U.S.C. 254b(d)(1)). Unless an exception under
           15.403-1(b)(1) or (2) applies, the contracting officer must require that
           the information submitted by the offeror include, at a minimum,
           appropriate information on the prices at which the same item or similar
           items have previously been sold, adequate for determining the
           reasonableness of the price. To determine the information an offeror
           should be required to submit, the contracting officer should consider
           the guidance in Section 3.3, Chapter 3, Volume I, of the Contract
           Pricing Reference Guide cited at 15.404-1(a)(7).

           (2) The contractor’s format for submitting the information should be
           used (see 15.403-5(b)(2)).

           (3) The contracting officer must ensure that information used to
           support price negotiations is sufficiently current to permit negotiation
           of a fair and reasonable price. Requests for updated offeror
           information should be limited to information that affects the adequacy
           of the proposal for negotiations, such as changes in price lists.

           (4) As specified in Section 808 of Public Law 105-261, an offeror
           who does not comply with a requirement to submit information for
           a contract or subcontract in accordance with paragraph (a)(1) of
           this subsection is ineligible for award unless the HCA [Head of
           Contracting Activity] determines that it is in the best interest of the
           Government to make the award to that offeror, based on
           consideration of the following:

              (i) The effort made to obtain the data.
              (ii) The need for the item or service.
              (iii) Increased cost or significant harm to the Government if
           award is not made. [Emphasis added.]

           (b) Adequate Price Competition [Omitted]

           (c) Commercial items. (1) At a minimum, the contracting officer must
           use price analysis to determine whether the price is fair and reasonable
           whenever the contracting officer acquires a commercial item (see
           15.404-1(b)). The fact that a price is included in a catalog does not in
           and of itself, make it fair and reasonable. If the contracting officer
           cannot determine whether an offered price is fair and reasonable, even
           after obtaining additional information from sources other than the
           offeror, then the contracting officer must require the offeror to
           submit information other than cost or pricing data to support
           further analysis (see 15.404-1). [Emphasis added.]

FAR 15.404-1, “Proposal Analysis Techniques,” provides that the objective of
proposal analysis is to ensure that the final agreed-to-price is fair and reasonable
and addresses cost analysis of “information other than cost or pricing data.”

                                         5
          (a) General. [Omitted.]

          (4) Cost analysis may also be used to evaluate information other
          than cost or pricing data to determine cost reasonableness or cost
          realism. [Emphasis added.]

Additional Guidance on Commercial Items. The Under Secretary of Defense
for Acquisition and Technology (renamed Acquisition, Technology, and
Logistics) provided clarification of FAR guidance on commercial items for
consistency including “Of a Type” and “Sole-Source Situations,” in a memo
dated January 5, 2001, on “Commercial Acquisition.”

          “Of a Type”: The phrase “of a type” is not intended to allow the use
          of FAR Part 12 to acquire sole-source, military unique items that are
          not closely related to items already in the marketplace. Instead, “of a
          type” broadens the commercial item definition so that qualifying items
          do not have to be identical to those in the commercial marketplace.
          The best value offer in a competitive Part 12 solicitation can be an item
          that has previously satisfied the Government’s need but has not been
          sold, leased, licensed, nor offered for sale, lease or license to the
          general public (a nondevelopmental item as defined in 10 USC 403
          (13)). In this scenario, the phrase “of a type” allows the best value
          offer to qualify for a Part 12 contract as long as it is sufficiently like
          similar items that meet the government’s requirement and are sold,
          leased, licensed, or offered for sale, lease or license to the general
          public. In such instances, “of a type” broadens the statutory
          commercial item definition to allow Part 12 acquisition of a
          government-unique item that can compete with commercial items
          that meet the government’s requirement.               This avoids the
          undesirable result of shutting out otherwise price-competitive
          preexisting suppliers of government-unique items from Part 12
          solicitations. [Emphasis added.]

          Sole-Source Situations:        Contracting officers and requirements
          personnel should work together to avoid sole-source situations.
          Competition is enabled when needs are broadly stated in terms of
          performance outcomes. However, a sole-source situation may be
          unavoidable, presenting pricing challenges. Tools and techniques are
          available for assisting in the price reasonableness determination for
          sole-source commercial item procurements. Sometimes, sole-source
          suppliers may attempt to exploit the lack of competitive markets
          and demand unreasonable prices. In such circumstances, the team
          should consider revising negotiation strategies to consider innovative
          solutions (e.g., strategic supplier alliances); buying the bare minimum
          quantities and working to restate the need to expand possible solutions
          and qualify alternate suppliers; and ultimately upgrading systems to
          current, commercial technology. In some cases, it may be necessary
          to escalate negotiations. The first escalation should be to the
          Procurement Executive, then, if necessary, to the Head of the
          Agency. [Emphasis added.]




                                         6
Commercial or Noncommercial Items
    AAR Defense Systems, the prime contractor, classified each of the 11 sole-source
    Hamilton Sundstrand spare parts as commercial or commercial “of a type” items
    and performed no cost analysis of the OEM prices. We compared military and
    commercial sales of the parts for January 2000 through June 2002 to determine if
    a sufficient commercial market existed that would indicate whether the items
    were “customarily used by the general public or by non-governmental entities for
    purposes other than governmental purposes.” Hamilton Sundstrand could provide
    only commercial sales data on the same items for parts 2, 3, 7, and 11;
    commercial sales data for “of a type” items for parts 1, 4, 8, and 10; and could not
    provide commercial sales data for parts 5, 6, and 9. The commerciality of the
    parts is questionable based on guidance because the commercial market is clearly
    insufficient to support any price reasonableness determination.

    Figure 1 shows that the volume of military sales were substantially higher than
    commercial sales for the same and “of a type” items.



                          1000
                          800
          Quantity Sold




                          600
                          400
                          200
                            0
                                 1   2   3   4       5    6      7   8      9      10       11

                                                         Parts

                                                                         M ilitary Sales
                                                                         Commercial Sales


    Figure 1. Comparison of Military to Commercial Sales


Fair and Reasonable Prices
    Although contracting officers for AMCOM and DLA followed established
    procedures and with available information generally determined prices fair and
    reasonable for sole-source spare parts procured from AAR Defense Systems,
    based on information we obtained that was not available to the contracting
    officers for AMCOM and DLA, the prices were too high. We obtained 2000,
    2001, and 2002 cost standards (total manufacturing costs) from Hamilton
    Sundstrand for the 11 spare parts reviewed and calculated fair and reasonable
    prices from the OEM by adding approved military general and administrative

                                                 7
    rates along with a profit margin (cost build-up price) determined by the auditors.
    Hamilton Sundstrand did not make the cost data available to either AAR Defense
    Systems or the DoD contracting officers. We compared OEM prices to the prices
    DoD paid to the exclusive distributor, AAR Defense Systems. The DoD prices
    ranged from 4 to 4 percent above the fair and reasonable price.

    Figure 2 shows the percentages above a fair and reasonable price that AMCOM,
    DSCC, DSCP, and DSCR paid for the 35 orders (29 contracts) and 11 parts
    reviewed.

                   4


                   4
                           1

                   4
         Percent




                   4


                   4


                   4
                               2   3

                                       4                     6
                       4
                                                 5                   7                            11
                                                                            8          9     10
                   0

                           AMCOM            DSCC         DSCP                   DSCR



    Figure 2. Percent Prices Were Above Fair and Reasonable Price

    See Appendix C for a detailed comparison of DoD prices with fair and reasonable
    prices (cost build-up prices).


Procuring Spare Parts From a Distributor
    The OEM, Hamilton Sundstrand (which declined to give a quote) directed that
    contracting officers for AMCOM and DLA procure spare parts through its
    distributor, AAR Defense Systems, even though AAR Defense Systems provided
    limited value to DoD. The AAR Defense Systems average pass-through costs
    (cost recovery and fee) added 4 percent to the DoD price.



    4
        This figure was calculated using contractor proprietary data and has been deleted.

                                                     8
AAR Defense Systems and Hamilton Sundstrand Distributor Relationship.
Starting in 1996, Hamilton Sundstrand entered into multiple agreements
identifying AAR Defense Systems as its “exclusive distributor” for Government
sales. The intent of the distributor relationship was for AAR to stock and
distribute the parts as a support alternative other than DoD stockage. Specifically,
the 1996 agreement stated:
           Whereas, the various DoD buying agencies and other users of
           Sundstrand equipment, in efforts to reduce costs, are looking to
           industry to provide the stocking and distribution function, including the
           delivery of material directly to the user organizations, within days of
           requisition.

DoD Policy on Support Alternatives. The DoD Materiel Management
Regulation, DoD 4140.1-R, “Support Alternatives Other Than DoD Stockage,”
May 20, 1998, provides guidance on support alternatives other than DoD
stockage. Section C3.4.2.1.1. states:
           All alternatives for obtaining materiel support directly from
           commercial sources, consistent with weapon system readiness goals,
           shall be used wherever practical to minimize inventory stockage
           requirements and achieve cost-effective distribution of materiel.
           Commercial alternatives include satisfying demands by placing orders
           with vendors for direct shipment to customers, use of commercial
           distribution systems, GSA [General Services Administration] Federal
           Supply Schedules, and new or existing contractor logistics support
           arrangements.

OEM and Distributor Lead Times. AAR Defense Systems provided only
limited stock and distribution functions and was not responsible for delivery of
the parts directly to user organizations within days of requisition because these
requirements were not in the Army or DLA contracts. Consequently, the Army
and DLA had responsibility for these requirements.

Table 2 shows that the quoted delivery lead times from the OEM, Hamilton
Sundstrand, to the distributor, AAR Defense Systems, were exactly the same as
the delivery lead times from the distributor to the Government. We did not have
the OEM proposal to AAR Defense Systems for parts 7 and 9.




                                          9
      Table 2. OEM and Distributor Quoted Lead Times Are the Same (after receipt of order)

                                           OEM to Distributor            Distributor to Government
      Item No.            NSN             Quantity   Delivery            Quantity        Delivery

                                                         5                              5
          1        2835-01-106-9153       100 - 200          months        100              months

                                                         5                              5
          2        2835-01-106-9156          90              months         90              months

                                                         5                              5
          3        2835-01-419-2118         3-80             months         75              months

                                                         5                              5
          4        2835-00-176-8867         5-40             months         30              months

                                                         5                              5
          5        2520-00-153-2652          75              months         75              months

                                                         5                              5
          6        2835-01-446-8522         5-400            months         90              months

                                                         5                              5
          8        2835-01-462-3375         1-400            months        380              months

                                                         5                              5
          10       2835-00-962-5838         10-50            months         39              months

                                                         5                              5
          11       2835-00-963-1393         5-110            months         97              months


Contracting officers for AMCOM and DLA need to initiate action that procures
sole-source Hamilton Sundstrand spare parts directly from the OEM or develops a
business case supporting the use of an exclusive distributor to provide inventory
stockage and materiel distribution requirements. In June 2002, we visited AAR
Defense Systems headquarters. During the visit, we performed a physical
inventory and did not identify any on-hand inventory that would enable AAR
Defense Systems to ship inventory within days of requisition to satisfy
Government requirements.

AAR Defense Systems personnel stated that they have provided added value in
their role as an exclusive distributor of sole source spare parts. In February 2003,
AAR Defense Systems had 14 units in inventory for only 1 of the 11 spare parts
we reviewed. AAR Defense Systems also stated that they improved lead times by
expediting deliveries of sole-source Hamilton Sundstrand spare parts prior to
DoD awarding a signed contract to AAR Defense Systems. We agree that AAR
Defense Systems has provided limited value added in situations when they
anticipated the award of a future DoD contract.



5
    This represents contractor proprietary data that has been deleted.

                                               10
    However, using both DoD and AAR Defense Systems infrastructure for stocking
    spare parts is not an effective use of resources when both add similar costs to the
    price of the parts.


“Information Other Than Cost or Pricing Data”
    Contracting officers relied on inaccurate and misleading information other than
    cost or pricing data AAR Defense Systems provided that originated from
    Hamilton Sundstrand and did not perform cost analysis of OEM prices that would
    determine price reasonableness. AAR Defense Systems did not provide
    contracting officers for AMCOM and DLA adequate information other than cost
    and pricing data that included uncertified cost or pricing data from Hamilton
    Sundstrand.

    Price Reasonableness Determinations. AMCOM contracting officers
    determined that prices for each of the spare parts were fair and reasonable.
    DSCR contracting officers, lacking sufficient information and data to make price
    reasonableness determinations, classified prices for orders on four out of the five
    DSCR parts reviewed as either unreasonable or could not determine price
    reasonableness. Unfortunately, there were critical requirements for the parts so
    the procurements were made at unreasonable prices. Catalog prices with price
    analysis supported other orders.

    Information Other Than Cost or Pricing Data Provided by AAR. The
    information other than cost or pricing data that AAR Defense Systems provided
    to DoD contracting officers contained inaccurate and misleading information
    because the data were irrelevant to the Hamilton Sundstrand price. The data
    indicated that Hamilton Sundstrand prices were based on some type of cost
    buildup. Hamilton Sundstrand stated during the audit that prices were price-based
    and not based on any type of cost buildup where profit was evaluated. DoD
    contracting officers questioned price increases; however, AAR Defense Systems
    provided information that supported the increases by stating that Hamilton
    Sundstrand had revised its material acquisition rate, rates utilized in the proposal
    had been negotiated with Defense Contract Management Office (DCMO) and
    Defense Contract Audit Agency (DCAA) offices, and price increases reflected
    escalation, profit, and increases in material handling.

    For example, an AMCOM contracting officer questioned the price for
    NSN 2835-01-106-9153 on contract DAAH23-00-P-0066. The Government had
    paid a unit price of $613.81 for the shaft assembly in June 1992; the new unit
    price for 30 shaft assemblies was $2,372 for a total contract price of $71,160.
    AMCOM had a critical requirement for the part, and the contracting officer relied
    on information other than cost or pricing data for pricing the item and determining
    price reasonableness.

    Table 3 shows the data AAR Defense Systems provided that supported price
    reasonableness where no cost analysis of the Hamilton Sundstrand price was
    performed.


                                         11
                     Table 3. AAR Other Than Cost or Pricing Data
                              Description                       Percent          Amount
                                                                                     6
          AAR Cost (Hamilton Sundstrand Price)                                   $
                                                                    6                6
          Selling/General and Administrative Expense                             $
                                                                                     6
           Subtotal                                                              $
                                                                    6                6
          Fee                                                                    $
                                                                                     6
          Unit price before economic concession                                  $
                                                                                     6
          AAR economic price concession                                         ($        )
              Net Price
                                                                                $2,371.77


To support the Hamilton Sundstrand price, AAR Defense Systems provided the
following information from Hamilton Sundstrand:
                 Hamilton Sundstrand Material Acquisition Rate
                                                    7



The statement submitted in relationship to the price implies that Hamilton
Sundstrand used some type of a cost buildup. While the statement was
technically correct, no relationship existed between the statement and the
Hamilton Sundstrand price. Consequently, the information AAR Defense
Systems provided to the AMCOM contracting officer was irrelevant and of no
value because the Hamilton Sundstrand price was not based on a cost buildup.
Using a cost buildup, we calculated that the fair and reasonable unit price for the
item from Hamilton Sundstrand was $ 8 versus the AAR Defense Systems
distributor price of $2,372.00 or a difference of 8 percent.

An AMCOM contracting officer also questioned the price for
NSN 2835-01-106-9156 on contract DAAH23-00-P-1175. The contract was for
90 turbine nozzles at a unit price of $4,815.84 for a total contract price of
$433,426.

Table 4 shows the data AAR Defense Systems provided that supported price
reasonableness. Again, no cost analysis of the Hamilton Sundstrand price was
performed.




6
    This figure represents contractor proprietary data that has been deleted.
7
    This area of the report represents contractor proprietary data that has been deleted.
8
    This figure was calculated using contractor proprietary data and has been deleted.

                                               12
                      Table 4. AAR Other Than Cost or Pricing Data
                     Description                          Percent          Basic            Option*
                                                                             9                 9
    AAR Cost (Hamilton Sundstrand Price)                              $               $
                                                             9               9                 9
    Selling/General and Administrative Expense
                                                                             9                 9
     Subtotal                                                          $               $
                                                             9               9                 9
    Fee
                                                                             9                 9
    Unit price before economic concession
                                                                             9                9
    AAR economic price concession                                       (       )       (        )
        Net Price                                                       $4,815.84        $4,936.24

       Extended Price                                                 $433,425.62     $444,261.78
    *The AAR source document contained mathematical errors for the option year.



To support the Hamilton Sundstrand price, AAR Defense Systems provided the
AMCOM contracting officer with the following information AAR Defense
Systems received from Hamilton Sundstrand that was included in the price
negotiation memorandum.
                                                     10



The statement again implies that the Hamilton Sundstrand price was based on a
cost buildup. However, the information AAR Defense Systems provided to an
AMCOM contracting officer was irrelevant and of no value because the Hamilton
Sundstrand price was not based on a cost buildup. We calculated, using a cost
buildup, that the fair and reasonable unit price for the item from Hamilton
Sundstrand was $ 11 in 2000 and $ 11 in 2001 versus the AAR Defense Systems’
price of $4,815.84 and $4,936.24, a difference of 11 and 11 percent, respectively.

The DSCR contracting officer questioned the price for NSN 2835-00-962-5838
on contract SP0480-00-G-0001 (delivery order TY66). The order was for
39 turbine nozzles at a unit price of $4,567.75 for a total contract price of
$178,142. The order also included an option quantity of 39 items at a unit price
of $4,796.15 for a total option price of $187,050. Table 5 shows the data
provided by AAR Defense Systems to support price reasonableness without cost
analysis of the Hamilton Sundstrand price.




9
This figure represents contractor proprietary data that has been deleted.
10
    This area of the report represents contractor proprietary data that has been deleted.
11
    This figure was calculated using contractor proprietary data and has been deleted.

                                                13
                     Table 5. AAR Other Than Cost or Pricing Data
                        Description                           Percent           Amount
                                                                          Basic      Option
    Quantity                                                               39          39
                                                                            12
    AAR Cost (Hamilton Sundstrand Price)                                $           $ 12
                                                                12          12            12
    Selling/General and Administrative Expense
                                                                            12            12
     Subtotal                                                           $             $

                                                                12          12            12
    Fee
                                                                            12            12
    Unit price before economic concession
                                                                            12            12
    AAR economic price concession                                       (        )    (          )
           Net Price                                                    $4,681.00    $4,915.05


    On April 12, 2001, AAR Defense Systems lowered its basic unit price to
    $4,567.75 and option unit price to $4,796.15. AAR Defense Systems provided
    the following information it received from Hamilton Sundstrand:
                                                         13



    The DSCR contracting officer determined that the price was fair and reasonable
    using price analysis and the information AAR Defense Systems provided. Again,
    the information AAR Defense Systems provided to the DSCR contracting officer
    had no reasonable relationship to the Hamilton Sundstrand cost to manufacture
    the part. We calculated that a fair and reasonable unit price for the item from
    Hamilton Sundstrand was $ 14 versus the AAR Defense Systems distributor
    prices of $4,567.75 and $4,796.15, or differences of 14 and 14 percent,
    respectively.

    Contracting officers for AMCOM and DLA need to comply with FAR
    requirements for obtaining information that is adequate for evaluating the
    reasonableness of price. This information--information other than cost or pricing
    data--includes uncertified cost or pricing data that can be used to perform cost
    analysis that supports price reasonableness determinations.


Document and Escalate Negotiations
    Contracting officers for AMCOM and DLA failed to sufficiently document and
    escalate negotiations in cases where the behavior of the OEM was either

    12
         This figure represents contractor proprietary data that has been deleted.
    13
         This area of the report represents contractor proprietary data that has been deleted.
    14
         This figure was calculated using contractor proprietary data and has been deleted.

                                                    14
unreasonable or uncooperative. No documented instances were present for the
35 orders reviewed where the contracting officers escalated negotiations to
support price reasonableness determinations. The unreasonable and
uncooperative cases included declining to quote or refusing to provide
information other than cost or pricing data that includes uncertified cost or pricing
data for cost analysis to support price reasonableness determinations. As
provided in the January 2001 memorandum from the Under Secretary of Defense
for Acquisition and Technology on commercial items, “Sometimes, sole-source
suppliers may attempt to exploit the lack of competitive markets and demand
unreasonable prices.”

IG DoD Report No. D-2001-129, “Contracting Officer Determinations of Price
Reasonableness When Cost or Pricing Data Were Not Obtained,” May 30, 2001,
recommends that the Under Secretary of Defense for Acquisition, Technology,
and Logistics emphasize to contracting officers the responsibility for identifying
contractors that refuse to provide data contracting officials request and then
institute corrective measures that include involving the head of the contracting
activity. The report identifies the same problems at both AMCOM and DLA
relating to commercial items with little or no sales outside DoD. The report states
that the contracting officers were accepting commercial prices from contractors
and not obtaining sufficient cost information to perform cost analysis to determine
price reasonableness.

In response to the report, the Director, Defense Procurement agreed that
circumstances leading to customer dissatisfaction, such as the denial of data
contracting officials request, should be a part of the overall past performance
evaluation of a contractor.

FAR 42.1501 states that past performance information includes “the contractor’s
history of reasonable and cooperative behavior and commitment to customer
satisfaction; and generally, the contractor’s business-like concern for the interest
of the customer.”

The Director, Defense Procurement also provided a memorandum to the
acquisition community on March 21, 2002, “Price Analyses and Price
Reasonableness Determinations When Cost or Pricing Data Are Not Obtained,”
that states:
                A contractor that refuses to provide necessary information may be
           rendered ineligible for award unless the Head of the Contracting
           Activity determines otherwise, in accordance with FAR 15.403-3 (a)
           (4). As such, it is important that contractor refusals to provide
           requested pricing information receive the attention of levels of
           management higher than the contracting officer, and that contracting
           officers document the extent of their efforts to obtain needed
           information.

When an OEM refuses to quote an item and requires that DoD contracting
officers procure the item from an exclusive distributor that provides limited value
to DoD or when an OEM refuses to provide information other than cost or pricing
data that includes uncertified cost or pricing data for cost analysis as required by
the FAR clearly demonstrates unreasonable and uncooperative behavior by the
                                        15
     contractor. Cases of unreasonable and uncooperative behavior by the OEM
     should be documented and elevated for resolution to the Senior Procurement
     Executive and, if necessary, to the head of the agency.

Strategic Supplier Alliance
     Contracting officers for AMCOM and DLA had not established an SSA with
     either AAR Defense Systems or Hamilton Sundstrand. An SSA is a framework
     implemented at the senior level that has been used successfully to develop a
     consensus of better contracting processes to produce optimum performance and
     price. In a memorandum dated May 13, 2002, the Director, Acquisition
     Initiatives stated that the Principal Deputy, Under Secretary of Defense for
     Acquisition, Technology, and Logistics met with the Senior Acquisition
     Executives for the DoD Components and discussed opportunities for SSAs. In
     conjunction with the first SSA award, which was made to Honeywell in June
     2000, the total number of SSA partnerships executed or planned through FY 2004
     is now 19 and includes Boeing, AVIBANK Manufacturing, and Lockheed-
     Martin. The Director, DLA together with the Commander of the Air Force
     Materiel Command jointly signed charters for alliances with Pratt and Whitney
     and General Electric in September 2002.

     DLA had initiated an SSA with Hamilton Sundstrand in August 2000; however,
     the first attempt was unsuccessful. In light of the other successful SSAs, we
     believe that AMCOM and DLA, in conjunction with the Air Force, should initiate
     action to implement a new SSA with either AAR Defense Systems or Hamilton
     Sundstrand.




                                       16
Conclusion
         Contracting officers for AMCOM and DLA were unable to procure spare parts
         directly from the OEM and obtain adequate information other than cost or pricing
         data. As a result, AMCOM and DLA paid $16.8 million instead of $ 15 million,
         or 15 percent ($ 15 million) more than fair and reasonable prices on 35 orders
         (29 contracts) for 11 sole-source Hamilton Sundstrand spare parts procured from
         AAR Defense Systems from March 1999 through August 2002. Based on annual
         demand and the most recent prices paid, we calculate that DoD will pay about
         $22.2 million, or 15 percent more than fair and reasonable prices for the same
         items in FYs 2004 through 2009 if the problems are not corrected. Of the
         $22.2 million, 15 percent or $ 15 million represents the average pass-through
         costs from AAR Defense Systems. Table 6 shows the funds that could be put to
         better use if AMCOM and DLA can negotiate fair and reasonable prices.



    Table 6. Summary of Funds Put to a Better Use With Fair and Reasonable Prices
                                            Current Prices                      Fair and Reasonable Prices
                                  1
       NSN                ADQ         Unit Price        Total          Unit price        Total        Difference
AMCOM
2835-01-208-77892            45       $ 2,579.73     $ 116,088                 15          15              15
                                                                           $           $               $
2835-01-106-9156            144         4,936.24       710,819                 15          15              15

2835-01-419-2118             41         8,813.40       361,349                 15          15              15

2835-00-176-8867             41         3,664.98       150,264                 15          15              15

 Subtotal                                           $ 1,338,520                            15              15
                                                                                       $               $
DSCC
2520-00-153-2652            77          4,411.55       339,689                 15          15              15

 Subtotal                                            $ 339,689                             15              15
                                                                                       $               $
DSCP/DSCR
3895-01-446-8522            280        15,573.07     $4,360,460                15          15              15

 Subtotal                                            $4,360,460                            15              15
                                                                                       $               $
DSCR
2835-00-015-8599             20         8,285.31        165,706                15          15              15

2835-01-462-3375            226         4,166.58        941,647                15          15              15

2835-00-104-7376             50         3,813.16        190,658                15          15              15

2835-00-962-5838             77         5,269.99        405,789                15          15              15

2835-00-963-1393            154         1,184.20        182,367                15          15              15

 Subtotal                                            $1,886,167                            15              15
                                                                                      $                $
   Total                                             $7,924,836                            15              15
                                                                                      $                $
                                                                  15                                       15
    Calculated cost difference from FY 2004 to FY 2009 (               )                               $
1
 Annual Demand Quantity.
2
 NSN 2835-01-208-7789 replaces NSN 2835-01-106-9153.


         15
              This figure was calculated using contractor proprietary data and has been deleted.

                                                        17
Management Comments on the Finding and Audit Response
    Summaries of management comments on the finding and our audit response are in
    Appendix E.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, Army Aviation and Missile Command
    and the Director, Defense Logistics Agency emphasize with their contracting
    officers the need to:

    1. Revisit procuring sole-source Hamilton Sundstrand spare parts from a
    distributor versus directly from the original equipment manufacturer or
    develop a business case that supports the use of an exclusive distributor to
    provide inventory stockage and materiel distribution requirements.

    Defense Logistics Agency Comments. The Director of Logistics Operations
    concurred, stating that the DSCR Integrated Supplier Team for Hamilton
    Sundstrand has had several discussions with Hamilton Sundstrand managers on
    this recommendation and advised that the company is willing to provide pricing
    information for approximately 50 to 70 sole-source NSNs for stock support as
    well as agrees to pursue a long-term corporate contract. A solicitation is expected
    to be issued in the near future and will include provisions for adding more sole-
    source Hamilton Sundstrand spare parts DSCC, DSCP, DSCR, and possibly the
    Services manage.

    Army Comments. The Deputy Assistant Secretary of the Army (Policy and
    Procurement) did not concur, stating that AMCOM contracting officers initiated
    action to procure spare parts directly from Hamilton Sundstrand with a goal for
    contract award in March 2004 “months” before receiving the IG DoD draft audit
    report.

    Audit Response. Although the Army did not concur, we consider the comments
    responsive. The actions the contracting officers for AMCOM took to procure
    items directly from Hamilton Sundstrand satisfy the intent of the
    recommendation.

    2. Obtain information that is adequate for evaluating reasonableness of
    price in accordance with Federal Acquisition Regulation requirements. The
    information--information other than cost or pricing data--includes
    uncertified cost or pricing data from the original equipment manufacturer
    that can be used to perform cost analysis to support price reasonableness
    determinations.

    Defense Logistics Agency Comments. The Director of Logistics Operations
    partially concurred, stating that although contracting officers have a responsibility
    for determining price reasonableness, they individually have little leverage in
                                         18
obtaining uncertified cost data from companies other than those with whom they
are contracting. However, the course of action addressed in response to
Recommendation 4. should enhance DLA ability to obtain such information.

Audit Response. We consider the DLA comments responsive.

Army Comments. The Deputy Assistant Secretary of the Army (Policy and
Procurement) did not concur, stating that AMCOM has a policy and practice of
negotiating fair and reasonable prices in accordance with FAR requirements and
other applicable regulatory guidance. Additionally, the Deputy Assistant
Secretary of the Army (Policy and Procurement) stated that some form of cost
analysis was performed that supported price reasonableness when information
other than cost and pricing data was used in most instances of AMCOM
requirements and that contracting officer “judgment” was applied with regard to
the prices reflected in contract awards.

Audit Response. The Army comments are not responsive. Although the
contracting officers followed procedures, their “judgment” to accept data the
OEM supplied without testing the validity of the data resulted in the Army’s
paying prices too high for spare parts. Based on the results of the audit, the Army
needs to perform some data tests that ensure contractors are supplying accurate
information other than cost and pricing data. We request that the Army
reconsider its position on the recommendation and provide additional comments
in response to the final report.

3. Document and escalate negotiations when an original equipment
manufacturer’s behavior is either unreasonable or uncooperative. This
unreasonable and uncooperative behavior includes refusing to quote an item
and requiring DoD contracting officers to procure the item from an exclusive
distributor that provides limited value to DoD or refusing to provide
information other than cost or pricing data (to include uncertified cost or
pricing data) as required by the Federal Acquisition Regulation.

Defense Logistics Agency Comments. The Director of Logistics Operations
partially concurred, stating that an OEM decision concerning whether to sell
products directly or through any alternative means is not subject to any statutory
or regulatory peacetime constraints. The Director of Logistics Operations
concurred that when major adverse situations of this nature occur, the matter
should be escalated within Government and OEM management channels for
resolution or remediation.

Audit Response. We consider the DLA comments responsive.

Army Comments. The Deputy Assistant Secretary of the Army (Policy and
Procurement) did not concur, stating that all AMCOM contracts for the four
NSNs reviewed contained determinations that prices were fair and reasonable.
Further, elevating negotiations is merely one technique that contracting officers
should consider.

Audit Response. The Army comments are not responsive. Even though
contracting officers determined that prices were fair and reasonable, the prices

                                    19
were too high because the validity of the data used to support prices was not
tested. Although FAR 15.404-3, “Subcontract Pricing Considerations” does place
primary responsibility on the prime contractor to evaluate subcontractor
proposals, the contracting officer has ultimate responsibility for determination of
the price reasonableness for the prime contract, including subcontracting costs.
The Defense Federal Acquisition Regulation Supplement 215.404-3, “Subcontract
Pricing Considerations,” also emphasizes situations where the contracting officer
should request audit or field pricing assistance to analyze and evaluate the
proposal of a subcontractor. Two such instances--if a business relationship
between the contractor and the subcontractor is not conducive to independence
and the contractor is a sole-source supplier with the subcontract costs representing
a substantial part of the contract cost--apply here. We believe that contracting
officers should use all of the tools available to obtain fair and reasonable prices,
including elevating negotiations when necessary to obtain sufficient data to
ensure prices are truly fair and reasonable. We request that the Army reconsider
its position on the recommendation and provide additional comments in response
to the final report.

4. In conjunction with the Air Force, initiate action to implement a new
Strategic Supplier Alliance with either AAR Defense Systems or Hamilton
Sundstrand.

Defense Logistics Agency Comments. The Director of Logistics Operations
concurred, stating that DLA is in the very early stages of formulating an SSA with
Hamilton Sundstrand by identifying and obtaining confirmation from additional
potential stakeholders, including the Army and Air Force. The Director of
Logistics Operations did not concur with implementing an SSA with AAR at this
time because current SSA efforts and resources for DLA are aimed at engaging
OEMs of sole-source spare parts.

Audit Response. We consider the DLA comments responsive.

Army Comments. The Deputy Assistant Secretary of the Army (Policy and
Procurement) did not concur, stating that AMCOM contracting officers initiated
action for procuring spare parts directly from Hamilton Sundstrand with a goal for
contract award in March 2004 months before receiving the IG DoD draft audit
report.

Audit Response. The Army comments are not responsive. We believe that an
SSA with Hamilton Sundstrand that involves all the potential stakeholders,
including DLA, the Army, and the Air Force, has a much greater chance for
success. We request that the Army reconsider its position on the recommendation
and provide additional comments in response to the final report.




                                    20
Appendix A. Scope and Methodology
   We visited or contacted individuals and organizations within DoD, AAR Defense
   Systems, and Hamilton Sundstrand. We reviewed 35 orders (29 contracts) for
   11 different Hamilton Sundstrand sole-source spare parts (NSNs) procured
   between March 1999 and August 2002 from AAR Defense Systems with a total
   value of $16.8 million. The Haystack Online for Windows showed 566 parts
   ordered from AAR Defense Systems from March 1999 to August 2002 valued at
   $64.1 million. Of the 566 parts, 89 made up $57.6 million or 90 percent of the
   $64.1 million. During the period reviewed, DoD awarded 311 orders for the
   89 parts. Our verification showed that Hamilton Sundstrand was the OEM for 87
   of the 89 spare parts. We selected 11 of the 87 spare parts that were high dollar
   items for our review.

   We reviewed information other than cost or pricing data from AAR Defense
   Systems that included the price charged by the OEM, Hamilton Sundstrand, and
   additional pass-through costs charged to DoD. We obtained standard
   manufacturing cost data for 2000, 2001, and 2002 from Hamilton Sundstrand.
   We also reviewed Hamilton Sundstrand commercial sales data from January 2000
   through June 2002.

   We reviewed delivery orders, contract awards, price negotiation memorandums,
   and correspondence within the contract files and Haystack Online for Windows
   database to determine whether DoD Components were receiving fair and
   reasonable prices and whether AAR Defense Systems was providing added value
   to DoD by acting as a distributor for Hamilton Sundstrand.

   We performed this audit from November 2001 through March 2003 in accordance
   with generally accepted government auditing standards.

   Use of Computer-Processed Data. We relied on computer-processed data from
   the Haystack Online for Windows database to determine the contracting activities
   to visit and to determine audit sample selection. Although we did not perform a
   formal reliability assessment of the computer-processed data from the Haystack
   Online for Windows database, we determined that the contract numbers, award
   dates, and contractors on the contracts reviewed generally agreed with the
   information in the computer-processed data. We did not find errors that would
   preclude use of the computer-processed data to meet the audit objectives or that
   would change the conclusions in this report.

   We also relied on Hamilton Sundstrand’s cost estimating system for standard
   manufacturing cost data to determine fair and reasonable prices for spare parts.
   We did not validate the data; however, DCAA performed audits in 1997 and 1999
   on Sundstrand Aerospace Corporation’s costs estimating system and stated that
   internal controls and procedures of the cost estimating system were adequate.
   Sundstrand Aerospace Corporation has undergone changes in their corporate
   structure since DCAA performed the audits. DCAA is performing an audit on
   Hamilton Sundstrand’s cost estimating systems and expects to issue a draft report
   of that audit in October 2003.

                                      21
    General Accounting Office High-Risk Area. The General Accounting Office
    (GAO) has identified several high-risk areas in DoD. This report provides
    coverage of the DoD Contract Management and Inventory Management high-risk
    areas.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.50, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provide reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    DSCR, DSCC, and AMCOM’s adequacy of management controls of contract
    management. Specifically, we reviewed management controls over price
    reasonableness determinations. We also reviewed management’s self-evaluation
    applicable to those controls.

    Adequacy of Management Controls. We identified management control
    weaknesses for AMCOM, DSCC, and DSCR as DoD Instruction 5010.40 defines.
    AMCOM, DSCC, and DSCR controls for contract management were insufficient
    to make sure that price reasonableness determinations resulted in DoD receiving a
    fair and reasonable price for the 11 spare parts reviewed. Recommendations 1.,
    2., and 3., if implemented, will improve contract management procedures and
    could result in potential monetary benefits. DLA conducted a Procurement
    Management Review in June 2001 on the pricing of first-time buys that identified
    management control weaknesses. Although DLA identified the management
    control weaknesses, problems still exist in determining fair and reasonable prices.
    A copy of the final report will be sent to the senior official in charge of
    management controls for DLA and AMCOM.

    Adequacy of Management’s Self-Evaluation. In the FY 2001 Annual
    Statement of Assurance, DLA identified the pricing of first-time buys as an
    assessable unit and reported that as a management concern for DSCR and DSCC.
    In addition, DSCR and DSCC provided price reasonableness determination
    training in FY 2002 for all contracting officers and buyers. AMCOM did not
    identify contract management as an assessable unit in its FY 2001 Annual
    Statement of Assurance and, therefore, did not identify price reasonableness
    determinations as a management concern or material weakness.




                                        22
Appendix B. Prior Coverage
    During the last 5 years, GAO and the IG DoD have issued 21 reports discussing
    spare parts and price reasonableness determinations. Unrestricted GAO reports
    can be accessed over the Internet at http://www.gao.gov. Unrestricted IG DoD
    reports can be accessed at http://www.dodig.osd.mil/audit/reports.


GAO
    GAO, Report No. GAO-02-502, “DoD Needs Better Guidance on Granting
    Waivers for Certified Cost or Pricing Data,” April 22, 2002

    GAO, Report No. GAO-01-772, “Army Inventory: Parts Shortages Are Impacting
    Operations and Maintenance Effectiveness,” July 31, 2001

    GAO, Report No. GAO-01-587, “Air Force Inventory: Parts Shortages Are
    Impacting Operations and Maintenance Effectiveness,” June 27, 2001

    GAO, Report No. GAO-01-22, “Defense Acquisitions: Price Trends for the
    Defense Logistics Agency’s Weapon Systems Parts,” November 3, 2000

    GAO, Report No. GAO/NSIAD-00-30, “Defense Inventory: Opportunities Exist
    to Expand the Use of Defense Logistics Agency Best Practices,” January 26, 2000

    GAO, Report No. GAO/NSIAD-00-22, “Contract Management: A Comparison of
    DoD and Commercial Airline Purchasing Practices,” November 29, 1999

    GAO, Report No. GAO/NSIAD-00-21, “Defense Inventory: Management of
    Repair Parts Common to More than one Military Service can be Improved,"
    October 20, 1999

    GAO, Report No. GAO/NSIAD-99-90, “Contract Management: DoD Pricing of
    Commercial Items Needs Continued Emphasis,” June 24, 1999


IG DoD
    IG DoD Report No. D-2002-112, “Industrial Prime Vendor Program at the Air
    Force Air Logistics Centers,” June 20, 2002

    IG DoD Report No. D-2002-059, “Results of the Defense Logistics Agency
    Strategic Supplier Alliance with Honeywell International, Incorporated,”
    March 13, 2002

    IG DoD Report No. D-2001-171, “Industrial Prime Vendor Program at the Naval
    Aviation Depot – Cherry Point,” August 6, 2001

                                      23
IG DoD Report No. D-2001-129, “Contracting Officer Determinations of Price
Reasonableness When Cost or Pricing Data Were Not Obtained,” May 30, 2001

IG DoD Report No. D-2001-072, “Industrial Prime Vendor Program at the Naval
Aviation Depot – North Island,” March 5, 2001

IG DoD Report No. D-2000-99, “Procurement of the Propeller Blade Heaters for
the C-130 and P-3 Aircraft,” June 12, 2000

IG DoD Report No. D-2000-98, “Spare Parts and Logistics Support Procured on a
Virtual Prime Vendor Contract,” June 14, 2000

IG DoD Report No. 99-218, “Sole-Source Noncommercial Spare Part Orders on a
Basic Ordering Agreement,” October 12, 1999

IG DoD Report No. 99-217, “Sole-Source Commercial Spare Parts Procured on a
Requirements Type Contract, “ August 16, 1999

IG DoD Report No. 99-101, “Logistics Response Time for the Direct Vendor
Delivery Process, Defense Supply Center, Columbus,” March 4, 1999

IG DoD Report No. 99-026, “Commercial Spare Parts Purchased on a Corporate
Contract,” January 13, 1999

IG DoD Report No. 98-088, “Sole-Source Prices for Commercial Catalog and
Noncommercial Spare Parts,” October 13, 1998

IG DoD Report No. 98-064, “Commercial and Noncommercial Sole-Source Items
Procured on Contract N000383-93-G-M111,” February 6, 1998




                                 24
      Appendix C. Comparison of DoD Prices with Fair and Reasonable Prices
                                                                      DoD Prices                            Fair and Reasonable Prices            Difference
       NSN                  Contract/Order         Date         Quantity    Unit              Total      Year16      Unit         Total         Amount    Percent
    AMCOM
2835-01-106-915317      DAAH2300P0066               Nov 99        30         2,372.00          71,160      2000        18            18             18       18
                                                                                                                       18            18             18       18
2835-01-106-9153        DAAH2300C0390               Sep 00        100        2,491.76         249,176      2000
2835-01-106-915319      1.035303862                  2002                    2,579.73                      2002        18                                    18


                                                                                                                       18            18             18       18
2835-01-106-9156        DAAH2300P1175               Sep 00         90        4,815.84          433,426     2000
                                                                                                                       18            18             18       18
2835-01-106-9156        DAAH2300P1175               May 01         90        4,936.24          444,262     2001
                                                                                                                       18            18             18       18
2835-01-106-9156        DAAH2302C0080               Jan 02        228        4,936.24        1,125,463     2002

                                                                                                                       18            18             18       18
2835-01-419-2118        DAAH2300C0194               Jun 00         75        8,468.98         635,174      2000
                                                                                                                       18            18             18       18
2835-01-419-2118        DAAH2302C0085               Dec 01         75        8,666.22         649,967      2001
2835-01-419-211819      1.016983627                  2002                    8,813.40                      2002        18                                    18



                                                                                                                       18            18             18       18
2835-00-176-8867        DAAH2300C0364               Sep 00         60        3,540.00         212,400      2000
2835-00-176-886719      1.035303862                  2002                    3,664.98                      2002        18                                    18




                                                                                                                                     18             18       18
 AMCOM Subtotal                                                                              3,821,026




              16
                   We did not obtain standard data from Hamilton Sundstrand for 1999.
              17
                   NSN 2835-01-106-9153 will be replaced by NSN 2835-01-208-7789 in the future.
              18
                   This figure was calculated using contractor proprietary data and has been deleted.
              19
                   We used Navy Inflation Indices of 1.035 to calculate prices from 2000 to 2002 and 1.017 to calculate prices from 2001 to 2002.

                                                                                        25
                                                          DoD Prices                          Fair and Reasonable Prices      Difference
       NSN              Contract/Order    Date      Quantity    Unit            Total      Year16      Unit         Total   Amount    Percent
      DSCC
                                                                                                        18           18       18         18
 2520-00-153-2652    SP074099C2425       May 99       40       4,885.00         195,400      2000
                                                                                                        18           18       18         18
 2520-00-153-2652    SP075000C3755       Dec 99       75       4,261.00         319,575      2000
                                                                                                        18           18       18         18
 2520-00-153-2652    SP075000C3794       April 00     80       4,261.12         340,890      2000
                                                                                                        18           18       18         18
 2520-00-153-2652    SP075000C3814        Jul 00      60       4,261.00         255,660      2000
                                                                                                        18           18       18         18
 2520-00-153-2652    SP075000C3711       Sep 00       61       4,261.12         259,928      2000
2520-00-153-265219   1.035303862           2002                4,411.55                      2002       18                               18



                                                                                                                     18       18         18
  DSCC Subtotal                                                                1,371,453


      DSCP
                                                                                                        18           18       18         18
3895-01-446-8522     SP056000ML044       May 00        2      14,584.00           29,168   2000
                                                                                                        18           18       18         18
3895-01-446-8522     SP056000C0066       Sep 00       25      14,584.00          364,600   2000
                                                                                                        18           18       18         18
3895-01-446-8522     SP056002C0200       Nov 01       90      15,313.00        1,378,170   2001
3895-01-446-852219   1.016983627          2002                15,573.07                    2002         18                               18


                                                                                                                     18       18         18
  DSCP Subtotal                                                                1,771,938




                                                                          26
                                                          DoD Prices                     Fair and Reasonable Prices      Difference
      NSN               Contract/Order    Date      Quantity    Unit        Total      Year16      Unit        Total   Amount    Percent


      DSCR
                                                                                                    18          18       18         18
2835-00-015-8599     SP041199MEC01       Mar 99        1       7,269.00        7,269     2000
                                                                                                    18          18       18         18
2835-00-015-8599     SP041199C5452       May 99       25       7,269.00      181,725     2000
                                                                                                    18          18       18         18
2835-00-015-8599     SP048099D05640001   Sep 99       200      7,269.12    1,453,824     2000
                                                                                                    18          18       18         18
2835-00-015-8599     SP048099D05640002   Aug 00       40       8,146.95      325,878     2000
                                                                                                    18          18       18         18
2835-00-015-8599     SP048099D05640003   Feb 01       160      8,146.95    1,303,512     2001
2835-00-015-859919   1.016983627          2002                 8,285.31                  2002       18                              18



                                                                                                    18          18       18         18
2835-01-462-3375     SP048000C5228       Dec 99       130      3,592.96      467,085     2000
                                                                                                    18          18       18         18
2835-01-462-3375     SP048000G0001TY91   Aug 01       42       3,932.50      165,165     2001
                                                                                                    18          18       18         18
2835-01-462-3375     SP048000G0001TY95   Nov 01       380      3,900.00    1,482,000     2001
                                                                                                    18          18       18         18
2835-01-462-3375     SP048000G0001TY95   Nov 01       380      4,097.00    1,556,860     2001
2835-01-462-337519   1.016983627          2002                 4,166.58                  2002       18                              18


                                                                                                    18          18       18         18
2835-00-104-7376     SP048000G0001TY67   Mar 01       36       3,692.94     132,946      2001
                                                                                                    18          18       18         18
2835-00-104-7376     SP048000G0001TY2W   Jun 02       223      3,813.16     850,335      2002
                                                                                                    18          18       18         18
2835-00-962-5838     SP048000G0001TY66   Apr 01       39       4,567.75     178,142      2001
                                                                                                    18          18       18         18
2835-00-962-5838     SP048000G0001TY66   May 01       39       4,796.15     187,050      2001
                                                                                                    18          18       18         18
2835-00-962-5838     SP048000G0001TY1X   Dec 01       79       5,019.04     396,504      2001
                                                                                                    18          18       18         18
2835-00-962-5838     SP048000G0001TY1X   May 02       79       5,269.99     416,329      2002
                                                                                                    18          18       18         18
2835-00-963-1393     SP048000MA259       Dec 99       45       1,021.00      45,945      2000
                                                                                                    18          18       18         18
2835-00-963-1393     SP048000G0001TY04   April 00     97       1,075.00     104,275      2000
                                                                                                    18          18       18         18
2835-00-963-1393     SP048000G0001TY65   May 01       418      1,089.00     455,202      2001
                                                                                                    18          18       18         18
2835-00-963-1393     SP048000G0001TY3T   Aug 02       79       1,184.20      93,552      2002
                                                                                                                18       18         18
  DSCR Subtotal                                                            9,803,598

                                                                                                                18       18         18
   Total                                                                  16,768,014




                                                                   27
Appendix D. Management Comments on the
            Finding and Audit Response

DLA Comments on the Finding
    Limited Data Available to DLA Contracting Officers. The Director of
    Logistics Operations commented that based on the limited data available, DLA
    contracting officers determined that the prices were not fair and reasonable for
    two contracting actions and reported that the prices could not be determined fair
    and reasonable in seven other instances. The Director of Logistics Operations
    also commented that DLA contracting officers were unable to obtain the cost data
    later provided by Hamilton Sundstrand to the IG DoD.

    Audit Response. Based on comments received from DLA and discussions with
    the Army, the IG DoD revised the finding paragraph to acknowledge that the cost
    data Hamilton Sundstrand provided to the IG DoD was not made available to the
    contracting officers. We agree that without the cost data IG DoD obtained,
    contracting officers would not have been able to determine that prices were too
    high for the contracting actions.

    Methodology for Calculating Fair and Reasonable Prices. The Director of
    Logistics Operations commented that neither the IG DoD methodology for
    calculating prices deemed fair and reasonable for the Government to pay for
    Hamilton Sundstrand parts was explained nor were the actual calculations of the
    IG DoD provided in the draft.

    Audit Response. The IG DoD briefed and provided data to representatives from
    the DSCR cost and pricing group on the IG DoD calculations of fair and
    reasonable prices. The data were also provided to DLA headquarters
    representatives. In addition, the IG DoD audit team has extensive experience
    pricing spare parts procured from various contractors including Hamilton
    Sundstrand and the calculations were also briefed to Hamilton Sundstrand
    representatives (see Appendix B, Prior Coverage, IG DoD). Our calculations and
    methodology are always available to DLA personnel.

    Recognizing a Reasonable Profit Margin for AAR Defense Systems. The
    Director of Logistics Operations commented that it is reasonable to allow
    contractor markups and profit commensurate with the value of services provided.
    The Director also commented that DLA contracting officers had no alternative but
    to buy Hamilton Sundstrand sole-source parts from AAR Defense Systems and to
    recognize AAR Defense Systems costs and a reasonable profit margin, regardless
    of the existence and extent of any value-added services AAR Defense Systems
    would provide.

    Audit Response. Statements appear to be contradictory. However, the actions
    DLA took to procure items directly from Hamilton Sundstrand should resolve this
    issue.
                                       28
Army Comments on the Finding
    Failing to Negotiate Fair and Reasonable Prices. The Deputy Assistant
    Secretary of the Army (Policy and Procurement) commented that the AMCOM
    practice is to comply with all regulatory and statutory requirements when
    negotiating fair and reasonable prices.

    Audit Response. Based on comments received from the Army, the IG DoD
    revised the finding paragraph to acknowledge that AMCOM and DLA contracting
    officers followed established procedures and with available information generally
    determined prices fair and reasonable for sole-source spare parts procured from
    AAR Defense Systems--an exclusive distributor for Hamilton Sundstrand.

    Commerciality of Hamilton Sundstrand Spare Parts. The Deputy Assistant
    Secretary of the Army (Policy and Procurement) commented that the FAR does
    not base the determination of commerciality of parts on comparison of military to
    commercial sales. In addition, the Army commented that AMCOM has
    commercial pricing for the four AMCOM NSNs and that two of the NSNs
    (specifically, NSN 2835-01-106-9153 and NSN 2835-00-176-8867) are not
    commercial “of a type.”

    Audit Response. The FAR definition of a commercial item specifically states
    that a commercial item is customarily used by the public or by non-Governmental
    entities for purposes other than Governmental purposes. Therefore, military sales
    do not support commerciality. Further, the IG DoD obtained sales history
    information from Hamilton Sundstrand. The information referenced 148 sales for
    part numbers identical or “of a type” for NSN 2835-01-106-9153. Our review of
    the information identified 100 of the sales were to AAR Defense Systems
    (Hamilton Sundstrand’s distributor for military sales). The other 48 sales were to
    foreign governments or companies performing work for both commercial and
    Government entities where the end-user could not be identified. Therefore, we
    characterized those sales as commercial. The IG DoD used Hamilton
    Sundstrand’s sales history data to characterize parts as commercial “of a type.”
    Contracting officers must verify whether sales histories provided as support of
    commerciality are in fact sales to the government. If so, the sales clearly do not
    qualify as commercial sales.

    Methodology for Calculating Fair and Reasonable Pricing. The Deputy
    Assistant Secretary of the Army (Policy and Procurement) commented that
    although the Army could not determine exactly how the IG DoD calculated the
    fair and reasonable prices, the Army believes the prices are significantly
    understated. The Army also commented, “Although we requested the ‘cost data’
    utilized by the DODIG in their evaluation, the DODIG did not provide the cost
    data for our review.” Additionally, the Army commented that it believes that the
    IG DoD used questionable methods to calculate fair and reasonable prices, such
    as not considering quantities as a factor.

    Audit Response. The IG DoD has extensive experience in calculating fair and
    reasonable prices using cost data. We have performed similar audits at Boeing,
    Hamilton Sundstrand, Honeywell, Bell Helicopter, and BF Goodrich (see
    Appendix B, Prior Coverage, IG DoD). Audit team members have also supported
                                        29
the DLA/Honeywell SSA and provided guidance and support using cost data to
price thousands of individual spare parts. In addition, the calculations were
briefed to Army headquarters representatives and also to Hamilton Sundstrand
representatives. As previously stated, explanations of the calculations,
methodology, and data were and are always available to Army personnel. In
regard to the quantities issue, Hamilton Sundstrand uses a standard cost
estimating system to price spare parts. Prices in standard cost estimating systems
generally do not vary based on different quantities. In addition, Hamilton
Sundstrand did not identify any policy relating to different quantities that would
affect its standard costs, we used the appropriate standard for each year, and we
found only minimal differences in the standards for the same parts from year to
year regardless of the quantities ordered.

Obtaining Information Other than Cost or Pricing Data. The Deputy
Assistant Secretary of the Army (Policy and Procurement) commented that
AMCOM contracting officers requested and received information other than cost
or pricing data to support the fair and reasonable price determinations made for
three of the four AMCOM NSNs.

Audit Response. The IG DoD recognizes that AMCOM contracting officers did
request, receive, and rely on information other than cost or pricing data to support
the fair and reasonable price determinations made for three of the four AMCOM
NSNs. Unfortunately, this information was inaccurate and misleading.
Consequently, we believe AMCOM contracting officers need to test in the future
the validity of the data.

Quoted Lead Times as a Measure of Added Value. The Deputy Assistant
Secretary of the Army (Policy and Procurement) commented that quoted lead
times may not be an accurate judge of determining added value and that AAR was
able to expedite orders to add value.

Audit Response. Because AAR Defense Systems was not stocking the Hamilton
Sundstrand parts, the Army should have been just as successful as improving
delivery times from Hamilton Sundstrand. Therefore, any improvement on the
quoted lead-time would not be an added value that the Army could not also have
obtained.




                                     30
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Initiatives
  Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, Army Materiel Command
  Commander, Army Aviation and Missile Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center Columbus
   Commander, Defense Supply Center Philadelphia
   Commander, Defense Supply Center Richmond

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          31
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        32
Defense Logistics Agency Comments




                     33
Final Report
 Reference




Darkened
areas of this
page
represent
contractor
proprietary
data that has
been deleted.



Revised
Pages i, 3,
and 7




                34
     Final Report
      Reference




     Darkened
     areas of this
     page
     represent
     contractor
     proprietary
     data that has
     been deleted.




35
36
37
38
39
Department of the Army Comments




                    40
41
42
43
Final Report
 Reference




Darkened
areas of this
page
represent
contractor
proprietary
data that has
been deleted.




                44
     Final Report
      Reference




     Revised
     Pages i, 3,
     and 7




45
Final Report
 Reference




Darkened
areas of this
page
represent
contractor
proprietary
data that has
been deleted.




                46
     Final Report
      Reference




     Darkened
     areas of this
     page
     represent
     contractor
     proprietary
     data that has
     been deleted.




47
Final Report
 Reference




Revised
Pages i, 2, 3,
16, 20, 24,
and 26




                 48
49
50
51
52
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.
Robert K. West
Henry F. Kleinknecht
Ronald W. Hodges
Lorin T. Pfeil
Robert P. Goldberg
Nicole M. Ellis
